HHS/OIG - Audit,"Review of the Calculation Methodology Utilized for Disproportionate Share Hospital Amounts Claimed Under the Missouri Medicaid Program,"(A-07-01-02089)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Calculation Methodology Utilized for Disproportionate
Share Hospital Amounts Claimed Under the Missouri Medicaid Program," (A-07-01-02089)
May 31, 2002
Complete
Text of Report is available in PDF format (465 KB).  Copies can
also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review
was to verify that disproportionate share hospital (DSH) amounts claimed
by Missouri for State Fiscal Year ended June 30, 1999 were calculated in
accordance with the approved Medicaid State plan.  The report pointed
out that DSH costs claimed on behalf of State mental hospitals were overstated
due to a clerical error. A simple calculation error occurred while compiling
DSH costs resulting in a $1.3 million Federal financial participation (FFP)
overstatement.  We recommended that the State return $1.3 million to
the Federal Government; review other years for similar errors and return
any overpayments; and implement controls to ensure such calculation errors
do not occur in the future. The State concurred with our finding that there
was a  $ 1.3 million FFP overpayment but did not respond to the remaining recommendations.